                                             CLOSEOUT FOR M99010001

              This case came to OIG on January 12, 1999, when the Director of Constituent Services'
    in the office of a U.S. ~enato?sent us a message concerning the c~rnplainant,~       a graduate
    student in the school4at the university.' The complainant alleged that the first and second
    ~ u b j e c t sboth
                   , ~ faculty members at the school, had committed intellectual theft by
    misappropriating ideas that the complainant had developed independently of the subjects and
    incorporating those ideas into their papers and proposals. He also alleged that they had
    harassed him in various ways. The complainant further alleged that the third ~ u b j e c ta, ~
    graduate student colleague of his at the school, in addition to engaging in intellectual theft and
    general harassment in concert with the first subject, had broken into the complainant's
    computer files and field journal notes and had harassed the complainant sexually. The
    complainant also alleged that, after the first two subjects had given other scientists at other
    universities access to the complainant's ideas, these other scientists had used the ideas in their
    NSF-supported publications without appropriately attributing the ideas to the complainant.'

           During the period when the alleged misconduct occurred, NSF supported the first
    subject's research.' The complainant's allegations of intellectual theft by the first subject
    concerned publications that benefited from NSF's support." The first subject was also PI for

- I Senaror-
    -

. . 'r M
       The School
              - fo
    50
         D-r.                 and D-r.
    ' M-.r
    ' The complainant alleged that the following publications misappropriated his ideas without appropriate




  --award
    'O
      -- -
         The first subject's paper, "
                =         '         ~    ~         r


                                                 page 1 of 4
                                                            i1998), acknowledges
                                                                      l          s


                                                                                                 M99-01
                                             CLOSEOUT FOR M99010001

     an award that supported the third subject's dissertation research." This award was made after
     the complainant made his allegations at the school.

            The second subject was PI on two NSF awards during the period when the alleged
    misconduct occurred.12 However, with the exception of a paper cited in footnote 8, the papers
    in which the second subject allegedly perpetrated his intellectual thefts.did not acknowledge
    support from the second subject's NSF awards, and there is no evidence that OIG has
    jurisdiction over the second subject's alleged misconduct in these papers. The complainant's
    allegations concerning these papers were considered by an inquiry cornmitte~at the university,
    which found that they lacked substance.

          In addition to the complainant's allegations of intellectual theft in specific papers, the
    complainant expressed concern that the first two subjects had submitted proposals to NSF that
    misappropriated the complainant's ideas.

            The subjects' university conducted an inquiry into the alleged intellectual thefts by the
    subjects, the allegations of harassment of the complainant (including the alleged unauthorized
    access to his computer files and field notes), and the third subject's alleged sexual
    harassment. l3 The inquiry committee received written assistance from an expert outside the
    university to help it evaluate the allegations of intellectual theft. On the basis of the inquiry
    report, the university concluded that the complainant's allegations lacked sufficient substance
    to warrant investigation.l 4

           OIG analyzed the written materials supplied by the complainant to state and document
    his complaint; reviewed the university's inquiry report and certain supporting materials; and




    -
    -
    subject as the co-PI.
      These were-,                 an award to the -
                                   and-




    reason to reconsider this issue.
                                                       P ,
                                                         entitled
                                                                                  !-a"
                                                                             entltled



     l 3 f h e subject's university provided evidence to OIG that it handled the alleged sexual harassment in keeping with

    accepted procedures for addressing alleged unwanted sexual advances in the work place. Although the
    complainant alleged that the university did not address this allegation thoroughly and effectively, OIG saw no

    '' The university's policy on misconduct in science does not permit the complainant to have access to the inquiry
    report. The university sent the complainant a letter summarizing the inquiry's findings. On the basis of
    statements in the letter, the complainant criticized the accuracy and thoroughness of the report. OIG's
    examination of the university report indicated that the report was substantially accurate in its characterization of
    the allegations and that the committee considered sufficient evidence to draw a reasonable conclusion concerning
    them. However, although OIG used evidence contained in the university's report in reaching its own conclusions,
    those conclusions in this case are independent of any conclusions that the university committee reached and do not
'
    rest on the authority of the committee's judgments.


                                                   page 2 of 4
                                 CLOSEOUT FOR M99010001

 analyzed the proposals the subjects submitted to NSF on topics generally related to the
 complainant's work to assess whether they contained evidence of intellectual theft.

        Many (although not all) of the ideas that the complainant believes are distinctively his
are contained in a paper he published with himself as first author and the first subject as fourth
author.15 OIG concluded that the first subject's authorship of this paper, combined with his
history of working on related ideas, made it impossible to consider the first subject's use of
ideas akin to those in this paper to be misconduct in science.

        The complainant and the third subject were students of the first subject. The
complainant aired many of his ideas in written work submitted to the first subject for comment
and critique and in discussions with the first and third subjects of common and related research
interests. Scientists ordinarily share ideas with teachers and colleagues and build on the ideas
of other members of their research groups. OIG neither disputes nor endorses the
complainant's contention that the first and third subjects in this case were influenced by ideas
first suggested to them by the complainant. However, OIG concluded that there was no
evidence of an unacknowledged influence so striking and decisive that either subject's use of
ideas suggested by the complainant might constitute misconduct in science. The university
inquiry reached a similar conclusion.

        The complainant believes his ideas are revolutionary and constitute a "breakthrough" in
their field. In OIG's judgment, there is no radical discontinuity in any of the subjects' research
programs that can be attributed to the influence of ideas that the complainant allegedly
developed. Similarly, in none of the subjects' papers or proposals do the subjects represent
themselves as introducing ideas that have the significance the complainant attributes to the
ideas the subjects allegedly misappropriated. OIG concluded that the subjects had not
misappropriated any of the complainant's ideas in a way that would prevent the complainant
from getting credit for achieving the major breakthroughs that the complainant believes he has
made. The university inquiry reached a similar conclusion.

        The complainant alleges thit the first two subjects harassed him in that they were
unfairly unsupportive or discouraging to him when he presented novel and promising ideas.
The complainant alleges that the subjects' use of the complainant's ideas indicates that their
criticisms were disingenuous. OIG concluded that there was no evidence in the written record
that the criticisms made by the first two subjects were disingenuous, despite the complainant's
allegation to the contrary. We further concluded that any uses the subjects may have made of
ideas the complainant considers to be his were entirely consistent with the subjects' criticisms
of the complainant's work. The university's inquiry committee, which interviewed the
subjects, reached a similar conclusion. OIG concluded that the alleged mistreatment of the
complainant, even if true, would in this case not rise to the level of misconduct in science.'




                                      page 3 of 4
                                CLOSEOUT FOR M9,?010001

        The university inquiry considered the complainant's allegation that the third subject had
broken into his computer files and field journal notes. The third subject denied this allegation,
and the university found no physical evidence to support it. OIG concluded that there was
insufficient substance to this allegation to warrant further investigation.

       OIG's examination of the subjects' proposals indicated that, if any of the subjects had
misappropriated the complainant's ideas, he had not done so in a way that could be considered
a serious deviation from accepted practices.

       This inquiry is closed and no further action will be taken on this case.




                                       page 4 of 4
